No.

IN THE SUPREME COURT OF THE UNITED STATES

JENNIFER VAN BERGEN
a/k/a Gwendolyn Stone -- Petitioner
vs.

PETITION FOR WRIT
OF CERTIORARI

SCOTT KOPPEL, DPM, — Respondent

PROOF OF SERVICE
I, Gwendolyn W. Stone , do swear or declare that on this date, April 27, 2021,
as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
eveiy other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as
follows:
Jamie Kimbrell, Esq.
Brooks Law
2629 Mitcham Dr
Tallahassee, FL 32308-5404

MAY 11 m
[RT.

I declare under penalty of perjury that the foregoing is true and correct. Executed on
May 6, 2021

Gwendolyn W. Stone

f

